Depatiment of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




    INVESTIGATIONAL DEVICES:

       FOUR CASE STUDIES





                    JUNE GIBBS BROWN
                     Inspector General

                        APRIL 1995
                       OEI-O5-94-OO1OO
              EXECUTIVE                           SUMMARY


PURPOSE

To assess in four case studies whether controls over clinical testing of investigational
devices ensure patient safety and sound clinical research.

BACKGROUND

The Food and Drug Administration (FDA) oversees the development of new medical
devices. For some medical devices, manufacturers must establish the safety and
efficacy of the devices through clinical trials before FDA will clear the device for
marketing. To further guard patient safety, Institutional Review Boards (IRBs)
approve and monitor clinical research within local hospitals. The FDA requested that
we assess various aspects of the testing process, particularly whether devices are being
distributed outside approved clinical trials.                        ..
We used four case studies to develop a picture of clinical trials for investigational
medical devices. We spoke with each device’s manufacturer, and selected clinical
investigators and IRB representatives. We reviewed FDA’s files for the devices,
obtained shipping records and other documents from the manufacturers, and inspected
documents from the IRBs we visited.

FINDINGS

During our assessment of the testing process, we found problems in three major
control areas: the accounting and tracking of investigational devices; and the local
oversight by IRBs including the informed consent process, The exhibit below
summarizes the kind of problems we found for each device.


                          Problems Found in Four Case Studies


                       Device A       Device B        Device C       Device D
  Device Tracking
                              d               4              d

  IRB Oversight
                              J               J              4              4

  Informed
  Consent                                     d              J



                                              i
We Uncovered Problems With The Distniution         Or Acemmtability Of Three

Investigational Devices.


Device A was distributed in excess of the approved protocol. This raised questions

about whether patients were properly informed about the devices, and whether

appropriate data was reported to FDA. Also, there was a lack of accountability for

Devices B and C. Clinical investigators and hospitals are unclear regarding their

responsibilities for tracking the use and disposal of investigational devices.


Our Case Studies Also Identified Potential Weaknesses In The Oversight Of Clinical

Trials At Local Sites.


We found that IRBs are dependent on information provided by clinical investigators,

have difficulty monitoring clinical trials, and have difficulty deciding whether a device

study poses significant or non-significant risk. In addition, we found problems with the

informed consent process including missing or incomplete informed consent

documents, questions about how informed consent is obtained, and difficulty in

reading informed consent documents.


CONCLUSION


We believe that in the current environment, investigational devices are often treated

as if they were already approved as safe and effective. In particular, although the

regulations clearly require the careful tracking and disposal of investigational devices,

our case studies show that accounting mechanisms sometimes fail. In addition, some

investigational devices are being used inappropriately outside of approved clinical

trials.


Our case study method does not provide sufficient evidence to determine the precise

extent of problems with the testing of medical devices. Nevertheless, it does raise

serious concerns about systemic weaknesses and casts reasonable doubt on the efficacy

and reliability of the current oversight process.


The FDA commented on the report (see Appendix D) and takes seriously our

findings. The FDA intends to carefully review the regulations and policies regarding

clinical investigations, and take whatever actions are warranted to ensure that clinical

investigations of medical devices are conducted with high ethical standards and in

accordance with all Federal rules pertaining to patient protection.





                                             ii
                            TABLE                    OF CONTENTS
                                                                                                                               PAGE

EXECUTIVE              suMMARY

INTRODUCI’ION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””           ”””” .-s”      .”s”          1

FINDINGS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..      s”””””..”””””                    8



    �	
         Problems with distribution and accountability
         of investigational devices . . . . . . . . . . . . . . . . . . . . . . . . . ...-...””””””””                                       8

    �	
         Potential weaknesses in the oversight of clinical
         trials at local sites . . . . . . . . . . . . . . . . . . . . . . . . . . ...”              S. .””.      ”.”.     ”””S””          10

CONCLUSION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. s”””””””                     16

MPE~I-                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..” O.”” ”O”””” O”o

k        Device Descriptions           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””            .””” sA-l

B: Glossa~              .........................                        ...........o..o-.”0”o”.-”                                 “B-l



CFDA             Study Request         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. ”.”” .”o-””                       C-l

D: FDA Report Comments..                         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””            ”””s.          D-l
                          INTRODUCTION

PURPOSE

To assess in four case studies whether controls over clinical testing of investigational
devices ensure patient safety and sound clinical research.

BACKGROUND

Medical devices range from simple ear swabs and tongue depressors to highly complex
diagnostic imaging equipment, surgical props and physical implants suchas
pacemakers. The Food and Drug Administration (FDA) oversees the development of
new medical devices through the Center for Devices and Radiologic Health. The
Center for Devices and Radiological Health requested that we conduct a study
regarding the Investigational Device Exemption (IDE) process (see Appendix C.) The
IDE regulation (21 CFR Part 812) sets forth the provisions for the conduct of clinical
investigations of medical devices in the United States.

Medical Device Ckssijication.s

As established by the Medical Device Amendments of 1976, there are three
classifications of medical devices. Class I devices consist of low-risk devices, such as
bed pans and tongue depressors, and are subject to general controls that include
premarket notification and prohibitions against misbranding. Class II devices, such as
hearing aids and electrocardiogram machines, are subject to additional special controls
that include performance standards and postmarked surveillance. Class III devices,
such as pacemakers and catheters, generally sustain or support life, are implanted in
the body, or pose a potential risk of illness or injury. Class III devices are subject to
general controls, some special controls, as well as the more stringent Premarket
Approval (PMA) process.

FDA Markdhg Approval

Manufacturers gain marketing clearance for many Class I and Class 11devices, and a
limited number of Class 111devices through the premarket notification process known
as the 510(k) process. The 510(k) refers to that section of the Federal Food, Drug
and Cosmetic Act (the Act) that allows a manufacturer to submit an application to
FDA for a device that is substantially equivalent to a device previously approved for
marketing by FDA. If FDA agrees that the devices are substantially equivalent, then
the review time for the new device should be reduced. The FDA might require a
manufacturer to conduct a clinical investigation of a device in support of their 510(k)
application,

For devices that do not meet 510(k) specifications, a manufacturer applies for
marketing clearance through the PMA process. Before submitting the PMA, the


                                              1

manufacturer establishes the safety and efficacy of their device through clinical trials.
The trial is conducted by a study sponsor, who may or may not be the manufacturer.
(In this report, we use the term manufacturer to refer to manufacturers and study
sponsors,) The data from these clinical trials are what FDA reviewers will analyze to
determine that a device is safe and effective enough for commercial distribution.

ZDE Approval Process

To conduct a clinical investigation of a medical device, the manufacturer must first

determine whether their study presents a significant risk or non-significant risk to the

patients, known as study subjects. According to the FDA a significant risk study poses

potential harm to clinical trial subjects either from the device or other procedures in

the study. For example studies using infusion pumps, pacemakers, and catheters are

considered significant risk studies. If the study poses significant risk, the manufacturer

submits an IDE application to FDA that details how the clinical trial will be

conducted.


The IDE application includes (but is not limited to) a clinical trial protocol. The

protocol should have well-defined trial end points (what constitutes success, failure, or

complications with the device). The protocol also establishes the number of subjects

that the device must be tested on to prove that the device will work safely and

effectively in a larger population. The characterizations of the test subjects should

also be defined; who in terms of age, medical condition and other factors will be

allowed into the study. Well-defined historical controls or control groups to compare

outcomes may also be necessary. The protocol will describe at how many sites, usually

hospitals, the testing will be done, and how many subjects per site will be included in

the trial. The protocol will also estimate how long it should take to conduct the trial.

Clinical trials conducted at more than one site are called multi-site trials.


In addition to FDA an Institutional Review Board (IRB) must approve the clinical

trial protocol at the specific sites where the clinical trials take place. The IRBs are

boards or committees within an institution which oversee the protection of human

subjects involved in clinical trials. The IRBs review protocols and the informed

consent forms given to the subjects of the clinical trials for both significant and non-

significant risk studies. The IRBs must review all clinical trials occurring within their

institutions on an on-going basis.


If a manufacturer determines that their study is non-significant risk, then only the

IRBs at the sites where the manufacturer wants to conduct the trial will review the

protocol. Examples of non-significant risk devices include daily wear contact lens,

wound dressings and some magnetic resonance imaging devices. If the IRBs agree

with the non-significant risk determination, they may grant what is known as an

“abbreviated IDE’ to the manufacturer and allow the manufacturer to begin the

clinical trial at that institution. However, if any single IRB that reviews the protocol

does not agree with the manufacturer that the study is non-significant risk, then the

manufacturer must inform FDA of the IRB’s decision. The FDA may agree with the



                                             2
manufacturer that the study poses non-significant risk, and the manufacturer may
conduct the study at any institution where the protocol is approved. However, if FDA
determines the study is significant risk, then the manufacturer must submit a full IDE
application to FDA.

lDE Clinical Investigators

Before or after a manufacturer obtains IDE approval, they may recruit the physicians,
known as investigators, to conduct the clinical trial. These clinical investigators might
be preeminent specialists in their field or major customers of the manufacturer. In
some cases, the manufacturer recruits clinical investigators based on the referral of
another investigator.

The clinical investigators are responsible for obtaining IRB approval for trial research
conducted at their institutions. Once the clinical investigator secures IRB approval,
they may begin recruiting subjects for the clinical trials. In most cases the subjects for
device trials come from the clinical investigator’s private practice. The clinical
investigator is responsible for obtaining the subject’s informed consent, recording study
data and conducting subject follow-up.

Concerns about the IDE Process

There have been concerns about the IDE process and the quality of the clinical data
obtained through this process. A recent report by FDA’s Committee for Clinical
Review found enough deficiencies in the design, conduct and analysis of clinical trials
in enough medical device applications to suggest an industry-wide problem. In some
cases, these deficiencies were determined serious enough to impede FDA’s ability to
judge the safety and efficacy of the device.

Adherence to Clinical BotocoLr

Some staff at the Center for Devices and Radiological Health have explained that one
way clinical data is compromised is that clinical investigators and manufacturers do not
adhere to the protocol subject limit and allow more subjects into the clinical trials than
necessa~. They may also admit subjects into the clinical trial that do not always meet
the criteria for admission stated in the clinical protocol. If this happens, trial data
could be compromised because investigators and/or manufacturers might only report
the best outcomes of selected subjects.

There have been several documented cases where manufacturers have distributed
investigational devices more widely than is stated in the clinical protocol. A report by
the House Subcommittee on Oversight and Investigations cites a recent example of
uncontrolled growth of a clinical trial involving a silicone angioplasty balloon used in
controlling cranial bleeding. The company responded to the increased demand of




                                            3

physicians byproviding thedevice inuncontrolled numbers. According to FD~the
uncontrolled expansion of the trial compromised the validity of the clinical data.1

Cost   Recoveiy Concerns

One possible reason why more subjects are admitted to clinical trials than necessa~ is
that per the IDE regulations, manufacturers may recover the cost of developing and
testing devices in the investigational stage. Drug manufacturers, on the other hand,
are prohibited from recovering any costs until the drug has been approved, except in
rare circumstances. The Congress allowed cost recovery of investigational medical
devices to foster the development of new medical devices by small companies.

In addition to the manufacturer being permitted to recover costs, clinical investigators
are allowed to charge the subjects not only for the device, but also for any procedures
or services involving the device. This provision may lead some manufacturers and
clinical investigators to include more subjects and to continue clinical trials beyond
what is necessary to establish safety and efficacy.

Rwnotibn Cimcems

Additional concerns exist that some manufacturers are promoting devices as safe and
effective while still in the investigational stage. Although manufacturers can recover
the actual cost of development, under FDA regulations, manufacturers may not
describe an investigational device as safe or effective, commercially distribute the
device beyond the scope of the clinical trial, or recover costs beyond what is
reasonable for device development before FDA approves the device.

One example of how a manufacturer used their IDE to commercially promote a
device was described in an Office of Inspector General report dated February 1991.
In this case, the manufacturer developed a device which had a 510(k) approval for one
use and an IDE for another use. However, the manufacturer, through training
seminars, catalogs, videotapes and technical manuals, commercially promoted the
experimental use of the device.z

Heallh Care In&shy Envuonment

The general environment of the health care industry may promote the distribution and
use of unapproved medical devices beyond clinical protocol design. Hospitals



    lLess Than the Sum of Its Parts, Subcommittee     on Oversight and Investigations,
 May 1993, page 12.


     2FDA Medical Device Re~ulation From Premarket Review to Recall, Office of
 Inspector General, February 1991, page 8.

                                             4
experience pressure to acquire the latest in equipment to compete with other
hospitals, and physicians also want to stay competitive as well as provide their subjects
with potentially more effective treatments.

Informed Consent IYocess

Questions have also been raised regarding the informed consent process both in
investigational device studies and other studies. The Congress held hearings in 1994
regarding informed consent and some of the potential problems with subjects not
giving informed consent. The hearing also discussed the appropriateness of using
investigational devices without a subject’s informed consent.

FDA Eflo~

The FDA is attempting to improve the quality of clinical data it receives by more
outreach and education of the medical device industry about clinical protocol design
and conduct. The FDA also attempts to ensure the integrity of the clinical trial data
through its Bioresearch Monitoring program. Through this program, FDA audits
manufacturers, IRBs and clinical investigators.

METHODO~GY

We were asked by the Center for Devices and Radiological Health to examine the
IDE process, particularly whether manufacturers were using the IDE process to
commercialize investigational medical devices. To understand how and why medical
devices might be commercialized, we believed that we needed to fully assess the
environment in which medical devices are tested. To accomplish these tasks, we
choose a case study methodology.

Using a case study approach presents both limitations and advantages. Devices
chosen for the case study and any problems found may not be representative of all
investigational medical devices. However, the case study approach provides a
comprehensive picture of how investigational medical devices are developed. A
shallower, though broader based review would not provide this understanding.

Selection of Devices

To select the investigational medical devices for inclusion in our case study, we
examined FDA’s entire IDE database which is used for tracking the status of an IDE
application. There were 1,509 IDE applications in the database. Over one-third of
the IDE applications were denied by FDA. We automatically dropped these
applications for our case study review.

We did not consider IDE applications dated before January 1986. We dropped from
consideration IDE applications for intraocular lens since these applications are



                                             5

regulated by a different set of regulations than IDE applications for investigational
medical devices.

We eventually narrowed the number of IDE applications for review to 30 files.
Included in these files were several devices and device types suggested by FDA. After
a comprehensive review of these 30 files, we eliminated seven IDE applications for
devices with previous 510(k) or PMA approval. We eliminated these applications
because of the difficulty in distinguishing those devices shipped for use in clinical trials
and those devices shipped for commercial distribution. We also eliminated seven IDE
applications that were single-sites because we thought that commercialization would be
more prevalent in multi-site trials.

We chose devices that were used in different regions of the body. This allowed us to
speak with clinical investigators in different medical specialties. Once we selected an
IDE application, we eliminated any similar devices.

Ultimately, we selected four devices for our review. One of these devices was
suggested by FDA because of their suspicions about commercialization of the device.
A description of the devices are located in Appendix A. The names of the devices are
protected from disclosure under the Freedom of Information Act because of the
proprietary nature of the information.

Inform.ation Gathered

For each device selected, we spoke with the device’s sponsor or manufacturer.3 We
asked general questions about the current IDE process. We also asked specific
questions about the device selected for the case study, One manufacturer, on advice
of attorney, would not discuss the specifics of the clinical trials for the device selected.

We spoke with selected clinical investigators and institutional review board
chairpersons or their designates for each of the devices. We did not interview every
clinical investigator or IRB representative involved in the clinical trials. We selected
the clinical investigators and IRBs based on their geographic location. In our
interviews with IRB representatives, we asked about their experiences not only with
the case study device, but also with investigational devices in general.

In addition, for Devices A and B, we obtained information from FDA audits of clinical
investigators or IRBs. For one of the devices, we spoke with the FDA reviewers.
Exhibit 1 summarizes the total number of the devices’ investigative sites and out of
that number, how many clinical investigators and IRB representatives we interviewed
and/or reviewed files for the study.




    3For one device, the manufacturer sold the technology. In this case, we spoke with
both the original manufacturer and the current manufacturer.


                                              6
                                 Exhibit 1
We reviewed the IDE files
for each device. We
                                  DEVICE         Total # of           # of             # of IRBs
reviewed in depth the
                                                 Investigative        Investigators    We
original application, and                        Sites in the         We               Reviewed
any amendments or                                Clinical Trial       Reviewed
supplements to the
                                    A        191414
application. When
applicable, we also                 B        I         13         1515
reviewed the PMA for the
device.
                                    c        I         47         I          10       18
                                    D        I          11        ]213
We obtained the shipping
records for each of the
devices. For the device
that was sold, the current manufacturer could not find the original shipping invoices,

but was able to provide us with a spreadsheet detailing how many were shipped, how

many were returned and how many were used. The manufacturers also provided us

with copies of investigator agreements, informed consent documents, clinical protocols,

and other information relevant to the devices.


We obtained pertinent documents from the IRBs we visited. These documents

included any material submitted to the IRB by the clinical investigator,

correspondence between the IRB and the clinical investigator, or the IRB and the

manufacturer, progress reports, and copies of the minutes of the IRB meetings where

the device was discussed. From one hospital, we obtained hospital purchase orders for

the investigational device.


We supplemented our interviews and data gathered through a review of FDA audit

reports for the devices selected. We also accompanied FDA inspectors during their

audits of two separate clinical investigators for one of the devices. During these

audits, we completed a file review of subjects involved in the clinical study.


Data Ana@iY

We entered all the shipping records received into a database. We analyzed this
database and related records to determine whether investigational devices had been
shipped in excess of protocol limits. We reviewed all other submitted and gathered
documents.

We also subjected informed consent documents to the computer based application
Grammatik IV, which analyzes overall readability of documents, and calculates an
index of reading difficulty for written material.

We conducted this inspection in accordance with the Quality Standards for Inspections
as developed by the President’s Council on Integrity and Efficiency.



                                             7

                                  FINDINGS


During our assessment of the IDEprocess in four case studies, we found problemsin
three maior control areas: the accounting and tracking of investigational devices; and
the local-oversight by IRBs including the ~nformed con<ent proce~s. Exhibit 2
summarizes what kind of problems we found for each device.

Exhibit 2
                     Device A         Device B         Device C         Device D
 Device Tracking
                              J                   d             d

 IRB Oversight
                              d                   J             J               d

 Informed
 Consent                                          d             d


The first finding below discusses in detail the accounting and tracking issues that FDA
asked us to look at. The second finding describes problems we discovered regarding
IRB oversight and informed consent as we looked at the broader IDE environment.

WE UNCOVERED PROBLEMS WITH THE DISTRIBUTION OR
ACCOUNTABILITY OF THREE INVESTIGATIONAL DEVICES.

One of the most important elements of clinical trial design is total number of subjects
the device will be tested on, and the defined characteristics of those subjects, including
age and medical conditions. The FDA reviewers must be sure that the data from the
studies they analyze accurately reflects the outcomes and effects from the use of the
device. Limiting the numbers of subjects in a clinical trial protects the overall
population until determinations of safety and efficacy can be made. The distribution
and use of investigational devices beyond the protocol limit potentially compromises
the data; investigators or manufacturers might only report on the best outcomes, or
not report poor outcomes, or certain side effects. To ensure that subject limits are
being complied with, accurate distribution, use, and disposal records must be kept.
While not generalizable to all clinical investigations of devices, these problems portray
how unchecked distribution can happen, and why it is difficult to monitor.

Device A Was Dhtn”buted In ficess of lhe Approved Protocol

The approved clinical trial for Device A consists of nine separate sites. Each site may
test no more than 75 devices. We analyzed the shipping records for Device A.



                                             8

Device A consists of three separate components. Each component is available in
different sizes. We limited the analysis to one of the three types of components used
in the device. No more than two of these components can be used in a surgery, with
a majority of surgeries only utilizing one component.

Our initial analysis of the shipping records for all nine clinical investigators for Device
A showed significantly more of these components shipped than reported to FDA as
implanted. The manufacturer’s 1994 annual progress report to FDA says a total of
284 components were implanted nationwide; however, the shipping records show that
1,319 components were shipped. The manufacturer explained that the large number
of devices shipped were warranted because of the need to have a number of different
sizes in stock and available at the time of surgery.

To check the manufacturer’s assertion, we reviewed documents for two different
clinical investigators for Device A.

For one of the clinical investigators, we obtained hospital purchase orders for Device
A. According to the hospital representative, in addition to their use for accounting
purposes, the purchase orders are also used to track subjects who received the device.
The purchase order date for the device is usually the day of surgery or within 1 to 2
days following the surgery.

Analysis of the shipping records for this clinical investigator show that the
manufacturer shipped a total of 327 components to the regional distributor who
supplies the clinical investigator with the investigational device. The hospital purchase
orders show that a total of 264 components were implanted in 258 subjects by either
the clinical investigator or the co-investigators. However, the 1994 annual progress
report submitted by the manufacturer to FDA and by the clinical investigator to the
IRB says that a total of only 37 components were used by this clinical investigator.
Clearly the clinical investigator has exceeded the 75 case limit of the approved
protocol at the local sites.

It is unknown whether this clinical investigator or the manufacturer only reported data
on the first 37 subjects who entered the study, if the clinical investigator or
manufacturer selected certain subjects to report on, or if these 37 cases were the only
subjects who met the subject selection criteria, In any case, it raises questions on the
quality of information being reported to FDA.

We also reviewed an FDA audit report for a Device A clinical investigator who died
in December 1992. According to the FDA audit report, the clinical investigator
reported completing a total of 19 device implants during the entire trial period. Our
analysis of the manufacturer’s shipping records show that a total of 77 components
were shipped to the distributor for the clinical investigator. After the death of the
clinical investigator, the distributor returned only 15 components, leaving 43
components unaccounted for. We are unsure of the status of these 43 components



                                              9

since the components should have been returned to the manufacturer      when the
clinical protocol was terminated.

A recent FDA audit of the manufacturer found that the manufacturer      could not
account for up to 25 percent of all the components shipped.

l%ere Ww A Lack of Accountability for Devkes C and B

Under the IDE regulations, clinical investigators are responsible for documenting the
receipt and distribution of investigational medical devices: the type and quantity, the
names of all persons who received the device, and why and how many were returned,
repaired or otherwise disposed of. However, according to 12 of 20 of the clinical
investigators we spoke with, the responsibility for maintaining the inventory of
investigational medical devices lies with the hospital, and not the investigator. The
hospital may or may not choose to track these devices.

Our analysis of the shipping records for Device C indicate that the number of devices
shipped to various clinical investigators exceed the number of cases reported to FDA.
These numbers range from one or two extra devices per investigator, up to 100 extra
devices. According to one investigator we spoke with, in some circumstances, a device
may be opened in surgery (thereby destroying its viability for future use), but not used
on a subject. However, we were unable to determine whether some devices were
actually used in unreported subjects or whether the devices were disposed of by the
clinical investigator. There was no accountability or tracking for these extra devices by
the clinical investigators we reviewed.

The use of an investigational device is supposed to be limited to subjects enrolled in
clinical trials or in rare emergency use with the IRB and FDA approval after obtaining
the subject’s informed consent. Our inability to account for the devices raises
questions regarding whether the devices were used, whether subjects were informed,
and whether data was collected and submitted on the subjects.

During an FDA audit, one of the clinical investigators for Device B claimed that all
tracking records for the device were kept by the hospital. However, the hospital could
not produce any records because they did not keep them. The FDA auditor had to
rely solely on records provided by the manufacturer.

OUR CASE STUDIES ALSO IDENTIFIED POTENTIAL WEAKNESSES                          IN THE
OVERSIGHT OF CLINICAL TRIALS AT LOCAL SITES.

During the course of our study, we attempted to understand how clinical trials are
conducted. We were struck by how the current system of clinical trials for medical
devices merges scientific research with patient care. Physicians practicing in their
normal environment are asked to conduct scientific research on patients.




                                            10

We realize that physicians are concerned about obtaining potentially more effective
treatments for their patients. While becoming a clinical investigator may ensure the
supply of these potentially more effective treatments, it also adds to the physician’s
responsibilities. For many physicians, clinical research is an area where they have little
training or experience.

We found that FDA manufacturers, IRBs and clinical investigators are all responsible
for ensuring that clinical trials are properly conducted. If clinical trials are not
conducted properly at all levels then the study results may be invalid. We focused our
review on the local levels of oversight and controls in the IDE process.

Two major controls in the IDE process are local oversight of clinical investigators by
institutional review boards and the informed consent process for human subjects.
These controls not only ensure proper clinical trials, but also ensure subject safety and
the collection of reliable data from clinical trials.

We found that IRBs are dependent on information provided by clinical investigators,
have difficulty monitoring clinical trials, and have difficulty deciding whether a device
is a significant risk versus non-significant risk device. In addition, we found problems
with the informed consent process including missing or incomplete informed consent
documents, questions about the informed consent process, and reading level difficulty
of informed consent documents. While these problems may not be representative of
all clinical trials being conducted in the United States, we found one or more
problems in 11 of 20 sites we examined.

Local Overnight of Clinical Inveshgaton by Institutional Review Boards

Institutional Review Boards monitor human subject research occurring within their
hospital or institution. Members of an IRB generally include physicians - usually of
different specialties - nurses, pharmacists, hospital administrators, a lay member of the
community, and often a member of the clergy or a medical ethicist. The IRBs in our
case studies ranged from large university based teaching hospitals with 26 members
overseeing 2,600 ongoing studies to small community hospitals with 8 members and 55
ongoing studies.

To conduct its oversight of all protocols, including devices, an IRB will first review a
clinical protocol submitted by a potential investigator, primarily to determine the risk
versus benefit to the subject in the clinical trial. An IRB can require that changes be
made to a protocol. The IRBs also focus attention on the informed consent
document, and may require content or wording changes. In addjtion, IRBs have the
authority to suspend or terminate studies within their institutions.

Reliance on information provided by clinical investigators

The IRBs generally rely exclusively on information provided to them by the
investigator, and sometimes a manufacturer. As noted earlier, in one of our case


                                             11
studies the investigator reported in an annual report that 37 cases had been completed
using Device A. Our review of that hospital’s invoice records showed that 264
investigational devices had been implanted by the date of the annual review. Relying
on the information provided by the investigator, the IRB continued to approve the
study which had an institutional limit of 50 to 75 implants, even though the hospital
records indicate that the clinical investigator had far exceeded that limit.

For Device D, the clinical investigator reported to the IRB that zero devices were
implanted during the course of the study. Reports from the manufacturer showed that
three devices had been implanted at that institution, including one device that was
implanted after the investigator informed the IRB that the study was closed.

Monitoring a clinical trial

Although IRBs have authority to suspend or terminate studies, they do not always
follow up or veri~ that their orders have been carried out. A clinical investigator for
Device A was told to suspend the investigation, pending submission of an annual
report. This investigator implanted 15 investigational devices during the six week
period of the suspension. It also appears that the same investigator implanted two
devices prior to FDA or IRB approval for the device.

In an example from Device B, the IRB approved the protocol pending changes to the
informed consent document. The investigator responded that the changes would be
made, yet we found they were not. The IRB had not followed up to see if the
changes had been made.

Two IRBs for Device A were not aware of a change made by the manufacturer to the
protocol during the course of the study. This change involved the addition of a
different sized device to the study. The IRBs should have been made aware of and
approved this change as it affects the rights, safety, and welfare of the trial subjects.
However, the IRB must rely on investigators and manufacturers to submit this
information.

In another example, an investigator for Device B did not inform the IRB that he had
moved to another city, and was no longer practicing at that institution. The IRB only
became aware that the investigator had moved when a human subject from the trial
went to a hospital clinic complaining of pain in the investigational device implant area.
The investigator had referred the trial subjects to this clinic, without ever officially
transferring the study and the participating subjects to a new investigator. The IRB
then assigned a new investigator to the study. In further communication with the IRB,
the former investigator did not understand why such a transfer needed to occur, as he
intended to conduct follow-up during periodic visits to the city. The IRB informed the
investigator that the subjects were human subjects in a trial at an institution, not
private patients. This example raises some questions regarding the respective
responsibilities of IRBs and manufacturers. Who should educate the clinical



                                            12

investigator regarding reporting and subject care responsibilities in a clinical trial, as
these differ from private practice?

Deciding Whether a Clinical Trial poses Significant or Non-significant Risk

One of the duties that FDA has delegated to IRBs is the determination of significant
versus non-significant risk device studies. This in an important determination, because
all significant risk studies must receive an IDE from FDA before beginning a clinical
trial. If a manufacturer determines that its study poses non-significant risk, and if the
IRBs also determine the study is non-significant risk, the manufacturer can begin a
clinical trial on the device without knowledge or approval from FDA.

Our interviews with IRB representatives revealed that many IRBs are confused or
unclear about what constitutes significant risk studies. In some cases, an IRB bases its
determination by comparing the risk of the device or procedure to other approved
devices. Thus, an IRB might consider the implantation of a pacemaker to be non-
significant risk, because the risk is compared to the risk of implanting an approved
pacemaker. Our review of IRB records revealed that 3 out of 10 IRBs for Device B
determined the study as non-significant risk. The FDA through its own study of this
issue found that nearly one-quarter of the non-significant risk devices approved should
have been significant ~isk de~isions. Although FDA is available to answ~r IRB
questions about this and other matters, an IRB will not call if they believe they have
made a correct determination.

Informed Consent for Human Subject3

Most medical ethicists view informed         Exhibit 3
consent as a process in which the
investigator thoroughly communicates                       Informed Consent Should:
to the subject the significance of their
                                                    �    Explain that the device has not been
participation in a clinical trial.                       approved as safe and effective by FDA.
Informed consent means that subjects                �    Describe any potential risks and
clearly understand that they are                         benefits expected from participating in
participating in research for devices                    the clinical trial.
that have not yet been proven safe or               �    Describe the length, nature and
                                                         number of subjects in the clinical trial.
effective. Although informed consent
                                                    �    Explain the patient’s rights including
ideally involves both verbal and written                 that their participation is voluntary
communication, most government                           and they can withdraw at any time.
officials, manufacturers, IRBs, and                 �    Explain who they should contact if
clinical investigators deem that                         they have any questions about the
 informed consent has been given when                    research or their rights as research
                                                         subjects.
 a subject signs the informed consent
                                                    �    Explain the patient’s responsibilities as
 document. However, as Exhibit 3                         a research subject including their
 illustrates, the extensive and sometimes                responsibilities for follow-up visits for
 complicated information that must be                    data collection.




                                              13

relayed through an informed consent document makes the verbal process of informed
consent that much more important.

Missing or incomplete documents

We found no informed consent documents in the individual case files of one
investigator for Device C. There were surgical release forms, but no informed consent
documents. The surgical consent forms did not explain that the device was
investigational and the risks associated with the device. Although the investigator
claimed that all research subjects received informed consent, an interview with the
investigator’s assistant revealed that while the subjects for another study for a similar
device received informed consent, the subjects for the Device C study did not.

A review of a clinical investigator’s files for Device B revealed that the informed
consent document was missing information about who (other than the investigator) the
subject should contact with questions or complaints about the study. This was the
case, even though the IRB requested that the informed consent document be
amended to show who to contact regarding questions about the study.

Cluestions about the process

Two clinical investigators for Device C sometimes waited to obtain subjects’ informed
consent until after the surgery was performed. The physician would decide during the
surgery whether the subject should receive the investigational device or some other
device. Both physicians claimed that the investigational nature of the device was
discussed with the subject prior to surgery. Because of this practice, one of these
clinical investigators never obtained informed consent from some of the subjects.

For Device B, FDA received complaints from a physician (not an investigator for the
device) alleging that a subject was not aware that the implanted device was
investigational. To date FDA has not completed an audit of the clinical investigator
and we are unsure if the subject signed the informed consent document. Nevertheless,
even if the subject had signed an informed consent document, this allegation indicates
that some subjects might not know what they are signing.

In several cases, investigators we interviewed acknowledged that they have little to do
with actually informing the subject about the study or device. This communication is
usually left up to an assistant or nurse. While this may not lead to subjects not being
informed, it does add to the “business as usual” atmosphere in doctor’s offices where
medical device research is conducted. The investigator behaves more as a treating
physician than as a clinical investigator.

Evidence obtained during a FDA audit of an investigator for Device B, showed that
most subjects signed the informed consent documents the day before surgery. This,
we were informed, is the norm for many clinical investigations. Furthermore, the
regulations do not indicate when, prior to a procedure or surgery, informed consent


                                            14
must be given, Technically, there is nothing wrong with this practice. However, the
process of informed consent means that subjects understand and volunteer for
participation in a study before agreeing to surgeries with investigational devices.
Considering that most physicians schedule non-emergency surgeries in advance, this
raises questions as to why the informed consent documents are not signed before
scheduling surgery. There is no evidence that a subject has been verbally informed of
the investigational nature of the device. An informed consent document signed 1 day
before surgery could easily be lost among the other hospital forms, including surgical
release forms, that must be signed before surgeries.

Difficulty reading informed consent documents

We gathered samples of informed consent documents from each of the investigators
we interviewed. Because of IRB requirements, and limited manufacturer guidelines,
documents may vary from site to site. Overall we found informed consent documents
range from providing direct, numbered, and simple statements, to convoluted and long
paragraphs. In any case, due to the extent of the information that must be provided,
these documents usually run four pages or more.

A reading difficulty and fog index analysis of four of the informed consent documents
(one for each device in our case studies) revealed reading grade levels of college level
to graduate level ability, and reading difficulty from fairly difficult to difficult. Some of
the verbage involved, such as technical device names and other medical terminology,
contribute to such high levels. Yet the question remains, do patients understand what
they are signing, and if not, is it adequately explained?




                                             15

                             CONCLUSION


We believe that in the current environment, investigational devices are often treated
as if they were already approved as safe and effective. In particular, although the
regulations clearly require the careful tracking and disposal of investigational devices,
our case studies show that accounting mechanisms sometimes fail. In addition, some
investigational devices are being used inappropriately outside of approved clinical
trials.

Our case study method does not provide sufficient evidence to determine the precise
extent of problems with the testing of medical devices. Nevertheless, it does raise
serious concerns about systemic weaknesses and casts reasonable doubt on the efficacy
and reliability of the current oversight process.

The FDA commented on the report (see Appendix D) and takes seriously our
findings. The FDA intends to carefully review the regulations and policies regarding
clinical investigations, and take whatever actions are warranted to ensure that clinical
investigations of medical devices are conducted with high ethical standards and in
accordance with all Federal rules pertaining to patient protection.




                                             16

APPENDIX                A




  Device Descriptions




          A-1
Device A

This is a prosthetic device with a chemical coating to promote bone growth. The FDA
has approved versions of the device without the coating for marketing.

The manufacturer submitted an application for an IDE in September 1988. The FDA
initially denied the application citing concerns with the material used in the device and
questions regarding the clinical protocol. The manufacturer amended their original
application. The FDA approved the IDE in February 1989.

In July 1989, the manufacturer submitted a supplement to their IDE requesting FDA
approval to manufacture and test two modifications of the device. The FDA
approved the modifications in November 1989 and set a limit for the clinical study of
600 implants at 15 institutions.

The manufacturer originally recruited a total of 11 clinical investigators to conduct
clinical trials at their respective institutions. However, two clinical investigators
dropped out before the study began. A total of nine clinical investigators participated
in the study.

The clinical trials are currently active and ongoing.

Device B

This is an orthopedic device which promotes the growth of bone mass between two
bones. The device comes both coated with a chemical substance to promote bone
growth and uncoated.

The manufacturer submitted an original IDE application in January 1991, The FDA
had concerns with the application. The manufacturer submitted a number of
amendments addressing FDA’s concerns. The FDA approved the IDE in September
1991.

The FDA limited the number of subjects in the study to 240 at 15 centers.      A total of
number of 13 clinical investigators participated at 10 institutions.

The clinical trials are currently nearing completion with a planned PMA submission.

Device C

This opthalmic device is used in eye surgeries. Originally, nine individual sponsor-
investigators received IDE approval from FDA for use of the device. In 1988, FDA
requested that one sponsor apply for an IDE under which a number of clinical
investigators would be covered.



                                           A-2

The sponsor submitted a PMA which initially was not accepted by FDA. The original
sponsor transferred the IDE to another sponsor. This sponsor submitted a PMA
which was accepted by FDA in March 1992. A number of individual clinical
investigators applied for their IDE to receive the investigational device. The FDA
granted most of the IDE applications submitted. In total 47 clinical investigators
conducted clinical trials on the device. The total number of subjects that were allowed
to participate is difficult to distinguish because of the number of independent IDEs.

The FDA has approved the device for marketing.

Device D

The device treats urinary obstructions. The manufacturer submitted their original IDE
application in April 1991. The FDA initially disapproved the application citing
concerns about the performance of the device and the clinical protocol. The
manufacturer submitted an amendment to their original IDE addressing FDA’s
concerns. The FDA approved the IDE in July 1991.

The FDA approved a limit of 150 subjects at 10 investigational sites for the clinical
study. However, during the course of the study the number of sites increased to 11.

The clinical trials are closed with no further subject enrollment.




                                           A-3

APPENDIX        B




     Glossary




        B-1
Terms are described in terms of medical device development      and research.



Centerfor Devices and Radiological Health (CDRH) - the Center within the Food

and Drug Administration which regulates the development       and marketing of medical

devices in the United States.


Clinical Investigator or Investigator - the person, usually a physician, who tests an

investigational device on a human subject.


Clinical Trial - a study involving humans in which a medical device, is tested to

establish safety, efficacy, or new indications.


Federal Foe@ Drug, and Cosmetic Act (the Act) - the legislation that established

FDA’s oversight of, among other things, medical devices.


Food and Drug Administration (FDA) - the Agency within the Public Health Service

of the United States Department of Health and Human Services which protects the

public health by, among other duties, regulating medical devices.


510(k) - the section of the Federal Food, Drug, and Cosmetic Act which allows a

manufacturer of a medical device to bring a new device to the United States market

because it is substantially equivalent to a device that is already on the market.


Human Subject or Subject - a person who undergoes the testing of a medical device.


Informed Consent - the cognizant approval of a human being to participate        as a test

subject in medical research.


Informed Consent Document - the form which explains the purpose and description of

a clinical trial, as well as the rights of participating human subjects. A human subject

is deemed to have given their informed consent to participate in the described

research when they sign the informed consent document.


Institutional Review Board (IRB) - the committee or board that reviews and approves

research involving human subjects at a local institution.


Investigational Device Exemption (IDE) - the regulation (21 CFR Part 812) that sets

forth the provisions for the conduct of clinical trials for medical devices in the United

States.


Manufacturer   - the company that makes the medical device.


 Medic-al Device - any equipment that is used in the diagnosis and/or treatment      of a

 medical condition. Medical devices range from band-aids to pacemakers.




                                            B-2

Premarket Approval (PMA) - the process and application to FDA by which a
manufacturer of a new medical device brings their new device to the United States
market.

Protocol - the design of a clinical trial, simply put, what will be tested, how it will be
tested, on whom will it be tested, how many will be tested, how long it will be tested,
and what will be established through the testing.

Significant and Non-Significant Risk Studies - before conducting a clinical trial for
medical devices, a sponsor must determine if their study poses significant risk for harm
to the human subjects participating in the study. The determination of significant risk
for a study requires that a study sponsor or manufacturer apply for an IDE from FDA
in order to conduct the study in the United States.

Study Sponsor or Sponsor - the person or persons who organize and run the clinical
trial. This may be the manufacturer, or someone the manufacturer has contracted
with to perform the duties.

Sponsor/Investigator - a clinical investigator who is both the sponsor and the
investigator in a clinical trial. Usually a sponsor/investigator has a single-site trial.




                                             B-3

APPENDIX              C




  FDA Study Request




       c-1
‘Jg
z.
 -z
   .’
        %,,,,,0
                          DEPARTMENT          O1; liliAL’I’11   N liUMAN
                                                                   —
                                                                           SERVICES                     I’ubllc   ticallll   Selvlcc




         >
                                                                                                        Memorandum
              Date        .         MAR     2 Isa

              From                 Director, Center for Devices and Radiological Health (HFZ-1 )


              Subject              Request for OIG Study


              To	                  Mr. George Grob
                                   Deputy Inspector General for Evaluations and Inspections

                        CDRH is currently considering possible revisions of the Investigational Device Exemption
                        (IDE) regulation, 21 C.F.R $812 et seq. The IDE regulation encourages the development
                        of usefi.d new medical devices, while protecting the safety and rights of study participants, by
                        establishing procedures for the conduct of clinical studies of devices. During the course of
                        a study under the IDE regulation, the investigational device is mempt from many FDA
                        requirements that would otherwise apply, such as performance standards and premarket
                        approval requirements.

                        Among the revisions we are considering are changes affecting FDA’s controls over
                        commercialtition   of investigational devices.. To help determine the extent the regulation
                        needs to be revised, it would be helpful to have objective data on the degree to which
                        inappropriate commercialization is occurring and on the economic and public health
                        significance of such commercialization. It would be useful to have data for three types of
                        investigations:

                              �	   Studies of simificant-risk devices. An IDE application and FDA approval are required
                                   for a study of an investigational device that presents significant risks.
                              �	   Studies of non-simificant-risk devices. No IDE application is required to study a
                                   device that does not present significant risks, but an institutional review board (IRB)
                                   must approve and monitor the study.
                              �	   Studies of diamostic devices. Diagnostic devices, such as in vizro diagnostics, that are
                                   non-invasive and are not used as a diagnostic procedure without confirmation through
                                   another, medically-lished,       diagnostic product or procedure are currently exempt
                                   from the IDE regulation.

                        CDRH would need reliable data within six months to be of use in revising the IDE regulation.
                        If OIG is willing to undertake this effort, I would ask that you work with Robert Eccleston
                        of my office to define measurable objectives for the study and to develop an appropriate study
                        plan. Mr. Eccleston can be reached on (301) 443-4690.


                                                                               Du.w’ill,.>!=

                                                                                    D. Bruce Burlington, M.D.


                                                                              c-2
 +-
,’
:
s
s
  %2   d
     %,,,,,oct
                     DEPARTMENT             OF HEALTH & HUMAN            SERVICES                           Public




                                                                                                            Memorandum
                                                                                                                      Health   Service




         Date
                     Lpril     14,   1995

         From
                             Commissioner             of Food   and     Drugs

         Subject	            FDA Response   to the Office                   of    Inspector     General
                             Evaluation   of Investigational                      Device    Practices

         To
                             Inspector           General
                             Department           of Health     and     Human Services


                    I am appreciative          of the recently     completed      evaluation  by
                    the OIG Office        of Evaluations       and inspections       of the Food and
                    Drug Administration’s           regulatory    controls     over clinical    studies
                    involving     investigational         medical  devices     and the cooperative
                    spirit    with which it was conducted.

                    Notwithstanding         the lirni,ted     scope                of the evaluation,            FDA takes
                    seriously     the findings        presented                  in the report.           Following
                    a careful     review      of them, we will                     take whatever        actions       are
                    warranted     to further       assure     that               investigational          device      studies
                    are conducted        i.n accordance       with               the highest       ethical      standards
                    and all    applicable       Federal     rules                designed       to protect      patients.
                    This could      include     actions     against                  individual      sponsors       if
                    evidence     of scientific        misconduct                   is sufficient        to justify
                    FDA intervention.

                    Although      it        is     premature    to     specify       what    actions      may        be   merited,
                    FDA generally                acknowledges        the    apparent      need to enhance the
                    training of clinical  investigators                            and local institutional
                    review boards to ensure they have                             a clear   understanding of their
                    regulatory       and ethical      obligations.            In addition,      the agency
                    may consider         other   measures to ensure the integrity of clinical
                    investigators          and the investigational              studies    they perform,
                    particularly         with respect      to accountability            of investigational
                    medical      devices.                                                 /“
                                                                  - -“------n




                    cc :      Assistant           Secretary     for Health





                                                                                 D-2

